<html>
<title> - OVERSIGHT HEARING ON THE FEDERAL TOXIC SUBSTANCES CONTROL ACT</title>
<body><pre>[Senate Hearing 111-1218]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1218

                   OVERSIGHT HEARING ON THE FEDERAL 
                      TOXIC SUBSTANCES CONTROL ACT

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON SUPERFUND, TOXICS, 
                        AND ENVIRONMENTAL HEALTH

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-184 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

      Subcommittee on Superfund, Toxics, and Environmental Health

               FRANK R. LAUTENBERG, New Jersey, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
AMY KLOBUCHAR, Minnesota             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania
BARBARA BOXER, California (ex 
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 2, 2009
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    73
Boxer, Hon. Barbara, U.S. Senator from the State of California...    74
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    90
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    91
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    92
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    93
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    94
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......   118
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................   173
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New 
  York, prepared statement.......................................   174

                               WITNESSES

Jackson, Lisa, Administrator, U.S. Environmental Protection 
  Agency.........................................................    99
    Prepared statement...........................................   102
Stephenson, John, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................   122
    Prepared statement...........................................   124
    Responses to additional questions from:
        Senator Boxer............................................   141
        Senator Carper...........................................   143
        Senator Cardin...........................................   144
        Senator Inhofe...........................................   146
Birnbaum, Linda, Director, National Institute of Environmental 
  Health Sciences................................................   152
    Prepared statement...........................................   154
    Responses to additional questions from:
        Senator Boxer............................................   157
        Senator Lautenberg.......................................   160
    Response to an additional question from Senator Carper.......   161
    Responses to additional questions from Senator Cardin........   162
    Response to an additional question from Senator Inhofe.......   163
    Responses to additional questions from Senator Vitter........   165

                          ADDITIONAL MATERIAL

Testimony of the Physicians Committee for Responsible Medicine 
  and the People for the Ethical Treatment of Animals............   175
 
     OVERSIGHT HEARING ON THE FEDERAL TOXIC SUBSTANCES CONTROL ACT

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Superfund, Toxics, 
                                  and Environmental Health,
                                                    Washington, DC.
    The committee and subcommittee met, pursuant to notice, at 
2:40 p.m. in room 406, Dirksen Senate Office Building, Hon. 
Frank R. Lautenberg (chairman of the subcommittee) presiding.
    Present: Senators Lautenberg, Boxer, Inhofe, Barrasso, 
Bond, Cardin, Klobuchar, Merkley, Udall, and Whitehouse.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I am a little alarmed because I am put 
to the right of the Chairman, and that is not where I intend to 
be.
    [Laughter.]
    Senator Lautenberg. But so I want to thank everyone for 
being here. I thought you would be the left of me, but that is 
so ordinary.
    [Laughter.]
    Senator Lautenberg. Anyway, despite evidence to the 
contrary, Senator Inhofe and I are good friends, and the 
evidence is not real. Oh, I don't want to get into that.
    [Laughter.]
    Senator Lautenberg. Now for the serious part.
    I want to thank everyone for being here as we focus on 
better protecting the health of our families by updating our 
chemical safety laws.
    This is a joint hearing of my Subcommittee on Superfund, 
Toxics, and Environmental Health and the full committee, which 
Senator Boxer chairs ably, and the two are going to--Senator 
Boxer asked, because I had such an active interest for such a 
long time in the subject at hand, that she agreed to hold this 
hearing and to permit me, again, the leadership of the hearing, 
at the hearing.
    Right now, there are hundreds of industrial chemicals in 
our bodies. That goes for nearly everyone in America. In fact, 
just this morning, the Environmental Working Group released the 
results of a 2-year study that found nearly 250 different 
industrial chemicals in the blood of 10 babies who were exposed 
to the substances while still in the womb.
    While some of these chemicals might not be harmful, others 
clearly are. And that means that these children face the 
possibility of chronic, life long health problems from the day 
they are born. And I ask unanimous consent to enter the 
Environmental Working Group study into the record.
    [The referenced information follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Senator Lautenberg. According to a 2002 study, 5 percent of 
cancers, 10 percent of neural behavioral disorders, and 30 
percent of asthma cases in children are associated with toxic 
chemicals. And it is time to sound the alarm. America's system 
for regulating these toxic chemicals is broken. Industrial 
chemicals are everywhere, from flame retardants in furniture 
and carpets to other chemicals in cleaning products, personal 
care products, food containers, and even children's products as 
simple as nipples and baby bottles.
    The current law, the Toxic Substances Control Act, puts a 
high burden on EPA to prove chemicals are unreasonably 
dangerous before the Agency can take steps to restrict their 
use. The burden is so high. In fact, the EPA has been able to 
ban only 5 of the more than 80,000 substances on EPA's 
inventory of chemicals on the market, and it has only tested 
about 200. That means the majority of chemicals used and 
products that make their way into our homes and our children's 
hands are untested. And we must strengthen our chemical laws to 
give Americans confidence that products are safe before they 
are sold and used throughout the United States.
    Most of the thousands of chemicals that we use every day 
are safe, but we need a law that will separate those safe 
chemicals from the ones that are not. And I believe that we are 
in an excellent position to accomplish that goal with a broad 
group of agencies and organizations coming to the table to work 
for reform.
    President Obama's Administration is here today. They are 
represented by the distinguished Administrator of EPA, Lisa 
Jackson, by the way, a good friend from New Jersey. The EPA 
recently released its principles for reforming TSCA. The 
Government Accountability Office, which recently put our 
chemical regulatory system on its list of high risk areas of 
the law, is here, as is the National Institute of Environmental 
Health Science, which has funded research showing the potential 
risks from toxic chemicals.
    In addition, everyone from chemical manufacturers to 
businesses that use chemicals in their products, to 
environmental, labor and health groups have called for the 
reforming of the Toxic Substances Control Act. The trade 
association for the chemical manufacturers, the American 
Chemistry Council, has agreed that the status quo is not 
working. In August, they released principles for TSCA reform 
which matched up closely with the principles released by the 
Obama administration and had substantial overlap with 
principles released by environmental, health and labor groups.
    Now, I ask unanimous consent to enter the American 
Chemistry Council's principles into the record, as well as a 
letter from their President, Cal Dooley.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
    Senator Lautenberg. Now, just a couple of hours ago, 13 
States released a statement calling for a strong Federal system 
to keep people safe from chemicals. And at this time, I ask for 
unanimous consent to place that statement into the record.
    [The referenced information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
   
    Senator Lautenberg. The States have said we have general 
agreement on the problem, and now we have to work together on 
the solution, and often when Government tries to write new laws 
or modify old ones, there is resistance. But this is a case 
where everyone, I hope, agrees on the need for change, and we 
need to make good on this unique opportunity.
    And that is why in the coming weeks, I plan to reintroduce 
legislation to strengthen our chemical laws. Our bill will put 
the burden of proving chemicals safety where it belongs, on 
chemical companies. Instead of waiting for a chemical to hurt 
somebody, it will require companies to prove their products are 
safe before they end up in the store, further in our homes, and 
in our being.
    We are already regulating pesticides and pharmaceuticals 
this way, and it is just common sense that we do the same for 
chemicals that are used in everyday consumer products.
    So I look forward to working with these witnesses to put 
common sense back into our environmental laws and better 
protect the health of the American public. And I thank all of 
you for being here, and I would turn to the Ranking Member of 
the committee, Senator Inhofe, my dear friend with whom we may 
occasionally differ, but we don't differ on the fact that we 
have respect for one another.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. That is true. That is true, and it has been 
true for quite a while now, too.
    Since we have two Chairmen here now, I will refer to the 
Chairman as Madam Chairman and Mr. Chairman, so we know who we 
are talking to.
    And I am glad we are having this oversight hearing on TSCA. 
Senator Lautenberg has indicated that he will again introduce 
legislation to amend TSCA. In the interest of moving balanced, 
effective TSCA reform legislation, I urge you, Senator, to 
introduce a bill driven by risk-based analysis, rather than by 
precautionary principle.
    Now, for the record, I want to get this into the record, I 
believe that any changes in TSCA must adhere to the following 
fundamental principles. Reviews must use data and methods based 
on the best available science and risk-based assessments. 
Reviews must include cost-benefit considerations for the 
private sector and consumers. Processes must protect 
proprietary business information as well as information that 
should be protected for security reasons. Procedures should 
prioritize reviews for existing chemicals. Processes must not 
include any provision that encourages litigation or citizen 
suits. And reviews must not include any provisions that compel 
product substitution by commercial interests or consumers.
    Now, before I close, I want to follow up on a letter that I 
sent yesterday, and actually an e-mail last week to you, Madam 
Chairman, requesting hearings on what is now colloquially 
referred to as Climategate. And whatever one's position on the 
science of global warming, and Madam Chairman, I think you know 
mine, one cannot deny that the e-mails raised fundamental 
questions concerning, among other things, transparency and 
openness in science, especially taxpayer funded science.
    What do I mean? Well, in addition to apparent attempts to 
manipulate data and vilify scientists with opposing viewpoints, 
there is evidence that some of the world's preeminent 
scientists, who received or have received taxpayer funded 
grants, evaded laws requiring information disclosure, including 
the Freedom of Information Act.
    Not only is this a potential violation of the law, but it 
violates a fundamental principle of the scientific method, that 
is to put everything on the table and allow anyone so inclined 
to attack it. If the research sustains the attack, then the 
researcher, the scientific community and the taxpayers can 
rightly have confidence that the conclusions are sound. If not, 
then it is back to the drawing board.
    Now, Madam Chairman, as I state in my letter, for the 
taxpayers' sake, let's look at this controversy from top to 
bottom. It has already forced Bill Jones, the head of the 
U.K.'s Climate Research Unit, to step down. The CRU is 
investigating his behavior, and Representative Markey had a 
hearing today on the e-mail controversy. I wasn't privileged to 
sit in on that committee hearing.
    I hope this committee meets its oversight responsibility by 
holding hearings, and I hope you will join me in calling on the 
Obama administration and the IPCC not only to investigate this 
matter but to release all of the data in question to ensure 
that taxpayer funded research is conducted according to the 
highest legal, ethical and professional standards.
    And I think it goes without saying that the East Anglia 
operation that we are talking about is really at the head of 
the science of the IPCC, and that is what makes this so 
significant.
    Thank you again, Mr. Chairman, for holding this hearing.
    Senator Lautenberg. Thank you.
    Chairman Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Yes. I will respond to Senator Inhofe before 
I make my statement. And so if I could just ask to have a 
minute to respond to him.
    First of all, my understanding is the hearing 
Representative Markey had was on climate science in general, 
and this issue was raised, and it was discussed, just as you 
have raised it at this hearing.
    You call it Climategate. I call it e-mail theft-gate. 
Whatever it is, the main issue is are we facing global warming, 
or are we not. I am sure you would agree that is the basic 
question for us.
    I am looking at these e-mails that have been--even though 
they were stolen, they are now out in the public, and we are 
looking through these e-mails. We are also calling the leading 
scientists of the world. We may well have a hearing on this. We 
may not. We may have a briefing for Senators. We may not. We 
are looking at this.
    This is a crime, and I would ask unanimous consent to place 
into the record section 1030 of the U.S. Criminal Code, Fraud 
and Related Activity in Connection With Computers. Having 
knowingly accessed a computer without authorization, it goes on 
calling it a crime. So part of our looking at this will be 
looking at a criminal activity which could well have been 
coordinated.
    Now, what I have in my hand here is a letter from the Chair 
of the Board of Directors of the American Association for the 
Advancement of Science, Mr. James McCarthy. And I ask unanimous 
consent to place it into the record.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Boxer. The body of evidence of human activity as 
the prominent agent in global warming is overwhelming, and he 
says there were these e-mails, but these facts remain. I will 
put that in the record.
    Also put in the record a press release from the Union of 
Concerned Scientists that says opponents of climate change 
legislation are trying to deceive the American public on 
climate science. After years attacking the science on its 
merits and failing, they are now using stolen e-mails to attack 
climate scientists directly.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. So we are looking at these e-mails. We are 
talking to the leading scientists, and Senator, I will share 
with you as these letters come in. And I am sure you and I 
could discuss how to proceed on this.
    In terms of the matter that is before us, I would ask to 
put my full statement in the record, Mr. Chairman.
    Senator Lautenberg. Without objection.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Boxer. And I want to compliment you for taking on 
this issue of chemicals in our environment, chemicals that our 
children are exposed to every single day, pregnant women are 
exposed, all of our families are exposed.
    And you know, I have often thought, Senator, that you have 
worked on this for so long. If I were to invite someone over to 
have a glass of water at my home, and I said, I am not sure 
that this water is safe. It could be poisonous, but why don't 
you drink it, and then we will talk about it later.
    That is the way we deal with our laws today. It seems to 
me, you would say, well, do you mind testing it first? If it is 
safe, I will drink it.
    So I think we need to reverse this whole system that we 
have in place, and I am happy to say my State is doing that. We 
want to make sure chemicals are safe before we say they can be 
used.
    President Ford signed the Toxic Substances Control Act into 
law in 1976, a Republican President, and he believed very 
strongly because he said at that time that we want toxic 
chemicals restricted in their use or banned if they were 
hazardous. Somehow along the road here, we have lost our way. 
And I don't believe that TSCA because of court decisions and 
poor implementation sufficiently protects pregnant women, 
infants, children and others.
    And Senator Lautenberg has really been my leader on this. 
He has had many bills in the past, and I am looking forward to 
his writing his new bill, which I am sure is one of the reasons 
he wanted to have this hearing.
    So here is what we are saying. We are saying thank you to 
Lisa Jackson because EPA in September issued principles for 
TSCA reform that included common sense steps to help address 
the risks of dangerous toxic chemicals. And I am looking 
forward to hearing from you, Administrator Jackson, on how you 
want to proceed.
    And again, my State took the lead on phthalates, and I am 
glad that we did something here; the Consumer Protection Safety 
and Improvement Act of 2008 banned those. There is a growing 
consensus that time is now to act on our chemical policies.
    People come up to me in California, Senator Lautenberg, and 
they say, I decided to have myself tested to see what kind of 
chemicals I may be carrying around in my body, because they 
don't feel well, and they want to check it out. Some of the 
answers that come back are kind of shocking. And a lot of 
people have a lot of mercury inside them. They don't know it. 
They haven't been feeling well. They are told to eat fish, then 
they eat too much fish, and they feel sick.
    We just need to get our arms around this. The American 
Chemistry Council has issued principles that support our effort 
to modernize our Nation's chemical management system, so this 
is good. I hope they are going to work with us in a good way, 
because we have a responsibility to our families to make sure 
that the products that are used by our families, by our 
children every day are safe.
    And we can strengthen our Nation's toxic load. I just want 
to say, as the Chairman of this committee, that this issue is 
really at the top of my agenda. But I am so happy to have you 
chair this hearing because you have been my leader on this for 
so very long. And I view this hearing as a very important step 
forward in the process. And I thank you again.
    Senator Lautenberg. Thank you very much.
    Senator Inhofe. I have something to put in the record here, 
too, if I could, Mr. Chairman.
    I also want to put a document in the record. This is, since 
we are talking about the credibility of scientists, this is the 
Congressional Research Service, and what they say about the CRU 
Director.
    Senator Lautenberg. May I ask you this, Senator Inhofe, 
that we get to the other two Senators here.
    Senator Inhofe. I ask unanimous consent to make this a part 
of the record.
    Senator Lautenberg. Yes.
    Senator Inhofe. OK.
    Senator Lautenberg. Absolutely.
    [The referenced information was not received at time of 
print.]
    Senator Lautenberg. Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    And I appreciate the witness, Mr. Chairman. I am going to 
send a letter today to Senator Whitehouse as Chairman of the 
Subcommittee on Oversight along the lines of my concerns about 
the recently disclosed e-mails regarding the Climate Research 
Unit at the University of East Anglia. I think the actions by 
scientists and others to suppress data that contradicts their 
conclusions are unacceptable, and this conduct should be 
investigated. So I am requesting that our Subcommittee on 
Oversight begin an immediate investigation into the matter.
    Mr. Chairman, we do need to protect our children no matter 
what age from the effects of harmful chemicals. I doubt that 
anyone in this room would not support that goal. There is 
nothing we wouldn't provide for our children. Children need 
safe drinking water. They need life saving medications. They 
need safe food to eat.
    One question we might ask ourselves in this hearing is the 
following: Have the chemistry industry and the EPA under the 
Toxic Substance Control Act helped improve the lives and health 
of our children? And to me, I think it has.
    Chlorine is one of the best examples of a successful 
chemical which has saved lives. According to the World Health 
Organization, diseases associated with untreated water kill 
more than 25,000 people every day in developing countries, and 
the chlorination of drinking water has been credited by the 
U.S. Centers for Disease Control and Prevention for helping to 
control infectious diseases and increase life expectancy.
    Ninety-eight percent of our water supply systems now use 
chlorine-based disinfectants. Chemistry using chlorine plays a 
role in producing 93 percent of the top selling medications in 
the United States. Children benefit from these drugs, including 
the drugs that treat epilepsy, asthma and depression.
    An antibiotic, Vancomycin, which is made with the chlorine 
chemical, has saved the lives of patients suffering from 
serious stubborn bacterial illnesses. Chemicals make prosthetic 
devices used as polyvinyl chloride or PVC, which is a common 
chlorine containing plastic used to construct prosthetic legs 
and arms for children whose lose limbs or have a birth defect.
    So thanks to these devices, many of these children can lead 
normal lives and participate in most activities. PVC is used to 
make blood bags, IV fluid tubes, tubing to deliver needed care 
to young patients. Incubators for prematurely born infants are 
constructed of chlorine-based polycarbonate plastic.
    The chemical industry also makes the plastics used to 
manufacture child car seats, safer playground equipment. There 
are still areas of concern, such as increased rates of 
childhood obesity and low birth weight babies, but we must be 
ever vigilant. We need a strong and a viable regulatory 
framework, the same framework under TSCA that has spurred 
advancements to help our children, not gotten in the way of 
them.
    This framework can provide the next series of advancements 
that can make the future better for all Americans.
    So every chemical at some exposure level is toxic. Fluoride 
used in toothpaste and purposely put in drinking water, if 
ingested in massive amounts, can cause harmful health effects. 
So as I say, the dose makes the poison.
    We must not enact policies that hamstring new chemical 
development that would prevent those new advancements. My point 
is that we don't need to scare folks about risks that are not 
there or are very low probability. Otherwise, the next child 
vaccine, the next bike helmet, the next prosthetic leg will not 
be there when families need it the most.
    And then finally, Mr. Chairman, today Senator Vitter and 
colleagues in the House and I are sending a letter to 
Administrator Jackson with regard to asking her to conduct a 
thorough and transparent investigation into the questions 
raised by the disclosure of e-mails from the Climatic Research 
Unit. We will go into that and release that letter today, and I 
ask that Ms. Jackson give serious consideration to this 
request.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman.
    I look forward with interest to the letter from the 
distinguished Senator from Wyoming. As far as I know so far, 
there is no role on the part of EPA alleged in the theft and 
dissemination of these e-mails, so I am not sure that there is 
much jurisdiction there. But nonetheless, I look forward to the 
letter.
    And I would not want to have whatever this little e-mail 
squabble is about distract from the relentlessly strong and 
unified scientific conclusion expressed most recently in a 
letter from the American Association for the Advancement of 
Science, the American Chemical Society, the American 
Geophysical Union, the American Institute of Biological 
Sciences, the American Meteorological Society, the American 
Society of Agronomy, the American Society of Plant Biologists, 
the American Statistical Association, the Association of 
Ecosystem Research Centers, the Botanical Society of America, 
the Crop Science Society of America, the Soil Science Society 
of America, and various other scientific organizations 
numbering I would guess about 15 or 16, which concludes this: 
Observations throughout the world make it clear that climate 
change is occurring, and rigorous scientific research 
demonstrates that the greenhouse gases emitted by human 
activities are the primary driver. These conclusions are based 
on multiple independent lines of evidence, and contrary 
assertions--I will cut into the quotation here by saying the 
contrary assertions such as we often hear around here--contrary 
assertions are inconsistent with an objective assessment of the 
vast body of peer reviewed science.
    I think we need to bear that in mind as we take a look at 
what I think is a relatively minor concern and one that does 
not involve EPA.
    And Senator Lautenberg, I appreciate very much your long 
leadership on this toxic issue and look forward to working with 
you and supporting you as you work toward this legislation.
    Senator Lautenberg. Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman.
    And thank you, Ms. Jackson.
    I am very much concerned not that these are incidental e-
mails, but the allegedly unethical and potentially illegal 
behavior by leading climate scientists may undermine the 
credibility of EPA actions.
    In the toxics program, the subject of today's hearing, many 
of EPA's decisions on whether to regulate a particular chemical 
are based upon science conducted by outside third parties. 
Indeed, EPA emphasizes over and over in its proposal to impose 
expensive new regulation on carbon dioxide emissions that EPA 
is acting based upon the findings of international scientists, 
including the Climatic Research Center in England, at the 
current center of the controversy.
    And yet we now discover, through the e-mails of scientists 
themselves, that climate scientists in England, the United 
States and across the world may have manipulated data to 
support their climate change theories, manipulated peer 
reviewed journals, sought to blackmail and get fired dissenting 
scientists, avoid legal requirements to make public their data, 
and destroy data instead of releasing it to the public.
    An American public you are asking to pay higher energy 
taxes and shed jobs in the middle of a recession deserves to 
know whether EPA is acting based upon some unethical and 
potentially illegal behavior by those so-called scientific 
organizations on which the Agency relies.
    I thank the Chair and I--actually, I said ``black-ball'', 
``blackmail,'' I meant ``black-ball.''
    But in any event, with that correction, I will stand by 
that statement and have more questions for you later.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman, and thank you and our 
Chair, Senator Boxer, for holding this hearing today. We want 
to thank our witnesses for joining us today, especially our 
lead-off witness, our Administrator.
    The use of chemicals in this country either saves, or in 
many cases improves the quality of not just thousands of lives, 
but tens of thousands, hundreds of thousands of lives every 
day, even more than that.
    Companies like DuPont, which has a major presence in our 
State, headquartered in our State, companies like BASF, which 
has a growing presence in our State, put science to work to 
create chemicals to provide safer, healthier lives for peoples 
from all walks of life, such as helping us refrigerate our 
foods or keep bacteria and disease from spreading.
    However, as we all know, exposure to some chemicals or 
combination of chemicals can be toxic to human health and to 
our environment. High doses of exposure to certain kinds of 
chemicals can lead to, among other things, cancer, birth 
defects and death.
    I was in Seaford, Delaware, earlier this week, where there 
is a small company--a large company, but a small plant. The 
large company is BASF, and the small facility employs about 30 
people. The major ingredients for the products they make come 
from for the most part by rail, and they are dangerous if not 
properly handled. Put them all together, and they create 
products from these potentially dangerous substances, and they 
create non-toxic, very healthful compounds and products for the 
rest of us to use every, every single day.
    Understanding the risks from certain chemicals, Congress 
attempted, I think it was in 1976, to give the EPA the tools 
necessary to protect public health from certain toxic chemicals 
in our country through the Toxic Substances Control Act. 
Unfortunately, we did not give EPA the right tools. And 33 
years later, I am told the EPA has a list of over 80,000 
chemicals being used in this country and can only regulate 
fewer than a dozen, maybe fewer than a half-dozen.
    As a result of our failing national policy, what we are 
seeing happen is a patchwork quilt of chemical regulations are 
emerging from our States, from our local governments, and even 
Congress has seen legislation banning particular chemicals.
    What we need, I believe, is a comprehensive national 
approach to chemical regulation. We need to find a way to keep 
using the chemicals that make our lives safer each day, and we 
need to restrict, to the extent that it makes sense, the use of 
chemicals that are dangerous to our health.
    Again, I applaud Senator Lautenberg's efforts on this 
issue. I look forward to working with him and all the 
stakeholders as we move forward on TSCA reform.
    Thank you.
    Senator Lautenberg. Thank you very much.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you very much. Thank you, 
Senator Lautenberg, for your leadership, and Chairwoman Boxer.
    And thank you, Administrator Jackson. I also wanted to 
thank you for your pledge to move ahead on the E15 request. I 
know that it is not quite complete, and I urge you to do it as 
soon as possible, but we appreciate that there has been some 
practical and positive studies coming out on this topic. So 
thank you for that.
    Today, we are here to talk about the Toxic Substances 
Control Act. Since I entered the Senate, I have made safe 
products and safe toys and the safety of the people of this 
country one of my No. 1 priorities, coming from my work as a 
prosecutor. The first thing that we have done, and Senator 
Boxer, a member of the Commerce Committee, as well as Senator 
Lautenberg, was involved in this, was passing the Consumer 
Product Safety Act, which the Wall Street Journal called the 
most sweeping consumer legislation in 16 years, to deal with 
toxic toys. We banned lead in children's products, and I was 
very proud of that work.
    We have a bill right now that I have with Senator Crapo. We 
have 17 authors. It is a completely bipartisan bill, with 
people from all over the country to bring national standards in 
for formaldehyde in composite wood products that I wanted to 
call to your attention. It is supported by the timber industry 
all over this country because, in fact, the timber industry has 
agreed to follow voluntary standards that are similar to the 
standards they have in California, in the United States.
    However, some of the foreign composite wood that is coming 
in does not abide by those standards. And so we are proud to 
have a bill that is supported by the timber industry and many 
consumer groups and health groups as well. As you know, 
formaldehyde in small concentrations is a normal part in our 
environment, but the problem is exposure to formaldehyde in 
high concentrations like we saw in the trailers in Katrina, 
especially over a prolonged period, can cause problems with 
nausea, asthma and other serious health problems.
    So we are very excited about this bill and just wanted to 
call that to your attention in the toxic substance area.
    As you know, the Toxic Substances Control Act was a 
landmark piece of legislation in the 1970s, but a lot has 
happened in the last 30 years. New chemicals have been 
developed. New science is available, and new regulatory regimes 
have been created in Europe and in other countries around the 
world.
    I am interested today to hear from you, Administrator 
Jackson and other distinguished panelists, about how we can 
update this Toxic Substances Control Act and how we can do it 
in a way to protect our children and our families, how we can 
do it so that we can provide more information for consumers, 
and work with our businesses to produce safe and healthy 
products.
    So thank you for being here today.
    Senator Lautenberg. Thank you very much, Senator Klobuchar.
    Senator Boxer.
    Senator Boxer. Yes, if I could just put into the record the 
letter that Senator Whitehouse alluded to, from all these 
organizations, American Association for the Advancement of 
Science, the Geophysical Union, on climate change. Put that in 
the part of the record that deals with this back and forth with 
Senator Inhofe.
    Senator Lautenberg. May I just take a moment here to look 
at what is in this letter that has meaning. This is written by 
a group of organizations, sent to us in October, or a month 
ago, and when these problems came about. And they say, ``As you 
consider climate change legislation, we, as leaders of 
scientific organizations write to state the consensus 
scientific view,'' and I will read another sentence or two 
here. ``Observations throughout the world make it clear that 
climate change is occurring, and rigorous scientific research 
demonstrates that greenhouse gases emitted by human activities 
are the primary driver.'' And they go on to explain how they 
arrive at that.
    But these are a group of distinguished organizations, 
without any possible criticism of their importance or their 
research. We enter this into the record.
    [The referenced letter follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Lautenberg. With that, we welcome New Jersey's gift 
to the country. Notice I left out the couple of Senators, but 
Ms. Jackson, New Jersey's former DEP Administrator and now the 
EPA Administrator for the country. Ambassador Jackson did an 
outstanding job as head of New Jersey's Department of 
Environmental Protection. She has continued the work of 
protecting public health and the environment at EPA.
    And I tell you as a long time observer of what is going on 
and what has gone on at EPA that Administrator Jackson has put 
her foot on the gas pedal, and things are happening. I hear 
through people that I--who I discuss that either are within the 
organization or have contact with it, and we thank you for your 
energy and your leadership.
    And please, Ms. Jackson, make your remarks.

           STATEMENT OF LISA JACKSON, ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you so much. It is good to be at EPA.
    So thank you, Chairman Lautenberg, Chairman Boxer, Ranking 
Member Inhofe, and other members of the committee, for the 
opportunity to speak about how we can improve the framework for 
assessing and managing chemical risks.
    The United States holds an enviable position in the global 
chemical industry. Since the mid-20th century, we have led the 
world in chemical production and innovation. That has brought 
new products to our markets and created new possibilities for 
manufacturing, for communications, and changed the ways we live 
our daily lives.
    That leadership has also provided jobs for Americans across 
the country. As we move into the 21st century, everything from 
our cars to baby bottles to the cell phones we all carry in our 
pockets is constructed with plastics and chemical additives. 
Chemicals are ubiquitous in our economy and in our products as 
well as in our environment and in our bodies.
    Naturally, that has raised concerns. A child born in 
America today will grow up potentially exposed to more 
chemicals than a child from any other generation in our 
history. At the same time, advances in toxicology and 
analytical chemistry are revealing new pathways of exposure. 
There are subtle and troubling effects of chemicals on hormone 
systems, human reproduction, intellectual development, and 
cognition.
    The public is turning to government, to us, for assurance 
that chemicals have been assessed using the best available 
science and that unacceptable risks have been eliminated. There 
have been calls to action from parents, public health groups, 
and environmental advocates. Those calls have been seconded by 
State and local authorities. And the chemical industry, too, 
has stepped up to ask for the law to provide consistency and 
predictability and assure the American people that this multi-
billion dollar industry is not a threat to their health and the 
health of their children.
    So we are here today because under existing law we cannot 
give that assurance. Restoring confidence in our chemical 
management system is a top priority for me and a top 
environmental priority for the Obama administration. The 
American people expect that all chemicals used in the American 
economy are safe. But Mr. Chairman, the 30-year-old law that 
gives EPA that authority is outdated. In the rapidly changing 
marketplace, it does not allow us to adequately protect human 
health and the environment as the American people expect, 
demand and deserve.
    The Toxic Substances Control Act was signed into law in 
1976 and was intended to provide protection of health and the 
environment against risks posed by chemicals in commerce. 
However, when TSCA was enacted it authorized manufacture and 
use without any evaluation or requirement for data on their 
toxicity of all chemicals that were produced for commercial 
purposes in 1976 or earlier years. As a result, there are 
troubling gaps in the available data and state of knowledge on 
many widely used chemicals in commerce.
    In the rare cases where EPA has adequate data on a chemical 
and wants to protect the public against well known, 
unreasonable risk to human health and the environment, there 
are often legal obstacles to quick and effective regulatory 
action. In 1989, after years of study, EPA issued a rule 
phasing out most uses of asbestos, a chemical whose health 
effects have been exhaustively studied and demonstrated to 
cause lung cancer, mesothelioma and asbestosis in humans. Yet, 
a Federal court overturned the rule because EPA failed to clear 
the many hurdles imposed under TSCA before existing chemical 
risk can be controlled.
    Due to these legal and procedural hurdles in the law, EPA 
has only been able to require testing on around 200 chemicals 
produced and used in the United States, and it has only issued 
regulations to control five existing chemicals, 5 from a total 
universe of more than 80,000 existing chemicals listed on the 
TSCA inventory.
    Though many of these chemicals likely cause little or no 
risk, the story is clear. We have only been able to effectively 
regulate a handful of chemicals, and we know very little about 
the rest. TSCA must be updated and strengthened.
    Earlier this fall, I announced the Obama administration's 
legislative principles for how this law should be revised and 
modernized. Let me highlight our principles.
    First, chemicals should be reviewed against safety 
standards that are based on science and reflect risk-based 
criteria protective of human health and the environment.
    Second, the responsibility for providing adequate health 
and safety information should rest on industry.
    Third, EPA should have clear authority to take risk 
management actions when chemicals do not meet the safety 
standard with flexibility to take into account a range of 
considerations, including children's health, economic cost, 
social benefits, and equity concerns. EPA and industry must 
include special consideration for exposures and effects on 
groups with higher vulnerabilities, particularly children.
    Fourth, EPA should have clear authority to set priorities 
for conducting safety reviews.
    Fifth, we must encourage innovation in green chemistry and 
support research, education, recognition and other strategies 
that will lead us down the road to safer and more sustainable 
chemicals and processes. All of this must happen with 
transparency and concern for the public's right to know.
    Finally, implementation of the law should be adequately and 
consistently funded in order to meet the goal of assuring the 
safety of chemicals and to maintain public confidence that EPA 
is meeting that goal.
    I know that legislative reform may take time, so I have 
directed by Assistant Administrator for Toxic Substances, Steve 
Owens, to utilize our current authority under TSCA to the 
fullest extent possible, including section 6 authority to 
label, restrict or ban a chemical to ensure that we do 
everything we can now to protect the American people and the 
global environment from dangerous chemicals.
    While fundamental reform is needed to fully protect against 
chemical risk, this is also a step forward. But let me be 
clear, there is no substitute for meaningful reform of the 
underlying law. The time has come to bring TSCA into the 21st 
century, and we need Congress to do it.
    EPA looks forward to working with this committee on this 
very important issue.
    Thank you so much.
    [The prepared statement of Ms. Jackson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Lautenberg. Thank you very much, Ms. Jackson.
    The one thing that struck me that deals so directly with 
the concerns about whether or not we are off on some useless 
pursuit when only 200 of some 80,000 chemicals have been 
tested, despite the fact that the numbers are very small in 
terms of those that have been banned, who knows how much damage 
any one of those could be.
    So we know that exposure to toxic chemicals has been linked 
to a wide range of diseases, lower IQs, and birth defects. And 
yet opponents of government regulation often point to economic 
concerns.
    Well, wouldn't restricting the most dangerous chemicals 
actually help reduce health care costs and benefit the economy? 
I know that in my own family, my father, who worked in a mill--
and he was a hard worker, very energetic--got sick from 
chemicals in the company and in 13 months died of cancer at age 
43. So we know that exposure to these harmful things can be 
extremely serious, and we shouldn't miss any opportunities to 
try to find them out and ban them.
    So what do you say, Ms. Jackson?
    Ms. Jackson. Yes, Mr. Chairman. I don't think that there is 
dispute that chemicals can have impacts on our health. I don't 
think anybody has any quibble with that statement. It is not 
inflammatory. It is just a simple fact, which means that we 
must manage that risk. We must manage against it.
    And certainly, if you take that as a fact, and you say 
chemicals impact our health, then that means that they have the 
potential to have good and bad impacts on our health if they 
are well managed or if they are not managed at all.
    Senator Lautenberg. How might a more transparent, effective 
law for regulating toxic chemicals benefit the companies that 
buy, use these large amounts of chemicals in their product?
    Ms. Jackson. Well, the secondary users, the people who 
don't manufacture or import, but end up with these materials in 
their product, their businesses can be the first ones affected, 
and in many cases they are affected even though those 
industries don't have adequate information to make a decision 
themselves on whether or not to take on a chemical in their 
manufacturing. So it can help them, in my opinion.
    Transparency and information about risk, along with 
scientific data to assess and manage that risk, can help 
protect the people who often the public turn to when something 
goes wrong with a product.
    Senator Lautenberg. Yes, and certainly the economic benefit 
of finding these things early that might be damaging is quite 
obvious. It is going to be a positive influence.
    EPA has overseen the regulation of pesticides for years and 
has succeeded in taking some of the most dangerous pesticides 
off the market. Now, my TSCA reform bill will require testing 
of chemicals using a standard similar to the one that applies 
to pesticides. Has EPA's regulation of toxic pesticides hurt 
that industry? Or has the industry been able to grow, while 
allowing EPA to restrict the most dangerous uses?
    Ms. Jackson. Yes, contrary to hurting the pesticide 
industry, I believe regulation is key to the industry's ability 
to innovate and then produce and market their products. They 
need the Government oversight to be able to say to people who 
eventually use their products, our products are tested and 
evaluated to be safe.
    So my belief--and I use this example all the time--is there 
are times when regulation and oversight, which is what 
Government can do, actually are needed. And I think that is 
why--I don't want to speak for them--you see a group like ACC 
saying that it is time for us to take this on.
    Senator Lautenberg. Yes, and included in that, of course, 
is the protection of the organizations that produce these 
products from lawsuits, from damaging publicity, et cetera, and 
that terrible record that would be a blight to any company.
    I thank you very much, Ms. Jackson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    And again, it is good to see you, Administrator Jackson. I 
am glad both of our families had a great Thanksgiving.
    As I indicated in my opening statement, I am very concerned 
about the e-mails disclosed between some of the world's leading 
climate scientists. Administrator Jackson, these are not the 
run of the mill scientists. In fact, according to a memo from 
the Congressional Research Service sent to my staff this 
morning, Phil Jones, who announced he was stepping down 
yesterday as a part of the investigation, was the lead author 
of the IPCC Science Working Group. And according to the 
Congressional Research Service, the Climate Research Unit, CRU, 
that we have been referring to from the University of East 
Anglia, where Phil Jones was director, is the world renowned 
Climate Research Center. I think everyone has stipulated to 
that.
    I am sure some of these e-mails were troubling to you.
    And by the way, I appreciate, Madam Chairman, your 
willingness to get in and look at these e-mails and make a 
determination as to what you think the proper action would be.
    But as I look at these e-mails, one of them, I am quoting 
from it right now. Now, the two Ms are referring to McKitrick 
and McIntyre. We are all familiar with them. They are 
scientists from Canada. ``The two Ms have been after the CRU 
station data for years. If they ever hear there is a Freedom of 
Information Act in the U.K., I think I will delete the file 
rather than send it to anyone.'' This is Phil Jones. That was 
his e-mail. ``So please don't pass this along to others.'' In 
other words, disclose, hide this cover up--``cover up'' is the 
word. ``Please don't pass this along to others without checking 
with me first. This sort of dirty laundry one doesn't want to 
fall into the hands of those who might potentially try to 
distort things.''
    Now, that is Michael Mann. We all remember Michael Mann 
from the very beginning of this. In fact, I remember back 
during the early Kyoto days, it was his hockey stick that 
started this whole thing, which has been pretty much refuted in 
terms of the science many, many years ago.
    Now, I could go on and on, but let me get to the question. 
Just this morning in the House climate hearing, President 
Obama's scientific adviser, Dr. John Holdren, said he did not 
think that Congress needed to investigate this. His reason, he 
said, is the scientific process would work itself out.
    Now, that is interesting to me because if these e-mails 
show anything, they show scientists obstructing the scientific 
process. They show scientists refusing to turn over their data 
so other scientists could reproduce it. That is an essential 
step in the scientific process. These scientists didn't want 
the scientific process to work.
    So my concern is--well, first of all, I would just ask you 
as to whether or not you agree with Dr. Holdren in his response 
to these questions. Is an investigation not warranted because 
the scientific process will work itself out? That was his 
position.
    Ms. Jackson. Dr. Holdren has probably spent more time 
thinking about that aspect of this issue than I have. From my 
perspective, I have been focused on the science that undergirds 
EPA's regulatory actions to date, and you are very familiar 
with them, Senator. And my ear is to the ground for any 
information that comes to light at any time, whether it is a 
result of this e-mail issue or otherwise, that causes me to 
believe that the overwhelming consensus has changed.
    And while I would absolutely agree that these e-mails show 
a lack of interpersonal skills, as I would say to my kids. Be 
careful who you write, and maybe more. I have not heard 
anything that causes me to believe that that overwhelming 
consensus that climate change is happening and that manmade 
emissions are contributing to it has changed.
    Senator Inhofe. Yes, even though these scientists were the 
lead scientists, everyone agrees that the CRU of East Anglia 
was certainly at the very top of this, and the IPCC relied upon 
these lead scientists. It is interesting, the matter that is 
submitted for the record is dated the 21st of October, before 
any of this happened. And I would strongly suspect that these 
organizations relied on the science of the IPCC. That is what 
is called into question.
    Now, the question I have, the reason I am bringing this up 
with you is, we are in the process of pursuing an endangerment 
finding right now. And the endangerment finding, according to 
almost everyone, including you, is based on the information 
given by the IPCC. So I would say that if we agree with Dr. 
Holdren that the science will work itself out, that we should 
suspend any further activity in the endangerment finding until 
the science is worked out.
    Would you agree with that?
    Ms. Jackson. Senator, I believe that what we should be 
looking for are any changes in the consensus opinion of 
scientists around the world about climate change, about man's 
contribution to it. And when it comes to the endangerment 
finding, you know quite well that that goes to whether 
greenhouse gases endanger public health and welfare.
    And so it is EPA's obligation, it is my job to keep ear to 
the ground on that issue as far as how the science impacts our 
regulatory decision, and I am committed to doing that.
    Senator Inhofe. Well, let me ask you one other question. I 
know my time is running out here. But many of the individuals 
on the other side of this issue, on the alarmist side, like 
George Monbiot with The Guardian, he said, and this is a quote, 
I think it was just yesterday. He said, ``Pretending that this 
isn't a real crisis isn't going to make it go away.'' And he 
goes on to talk about these things, they have got to be looked 
at.
    And I would say that, yes, I know what the endangerment 
finding is, but I also strongly suspect, and I have some 
documentation to show, that it is reliant to a great degree on 
findings by the IPCC. And here we have the two lead scientists 
in the IPCC that everyone else is depending on under 
investigation now and relieved from their positions
    For that reason, I would encourage you to delay until we do 
have findings any further processes that could be made or are 
in the process of being made in the Environmental Protection 
Agency that would depend on the authenticity of the science 
that comes from the IPCC.
    Senator Lautenberg. Thank you.
    Senator Inhofe. Do you agree?
    [Laughter.]
    Ms. Jackson. I certainly hear your encouragement, and I 
appreciate your position.
    Senator Lautenberg. Thank you.
    Senator Whitehouse.
    Senator Boxer. What about me?
    Senator Lautenberg. Oh, I am sorry.
    [Laughter.]
    Senator Lautenberg. I am so unaccustomed to being after 
Senator Boxer.
    Senator Boxer. Right, well, you mean, you didn't think I 
wanted to respond to my esteemed Ranking Member?
    Senator Lautenberg. Well, I try to keep a sparring partner.
    Senator Boxer. You are trying to keep us apart. You are 
trying to keep us apart.
    [Laughter.]
    Senator Boxer. You're doing a good job.
    [Laughter.]
    Senator Boxer. That is right. That is exactly right.
    Well, let me say this, first of all, I thought this hearing 
was going to be about TSCA, and you have my word that TSCA is 
very high up on my agenda and also the other members of this 
committee, I think on both sides, because here is where we are 
going. Right now, we are learning about these toxic chemicals, 
and there is outrage in the public, Administrator Jackson, 
because we are not doing anything. Our hands are tied. You 
yourself said you were so upset about this.
    And of 80,000 chemicals, what did you say? You are 
regulating 2, did you say, of those?
    Ms. Jackson. Five.
    Senator Boxer. Banned 5.
    Ms. Jackson. We have taken action on 5.
    Senator Boxer. Now, that is why you see in the Senate, we 
are moving against lead in toys. And several of us, as Senator 
Klobuchar reiterated, were involved in that. We are moving 
against phthalates. We are going to move against BPA. We are 
going to move against all these things one at a time.
    And it makes no sense because we need to have a process 
that we all believe in, that we all know is working.
    Now, I just want to say as Chairman of this committee and 
representing the majority, we don't want you to delay on this 
endangerment finding. We know on climate change, the Bush 
administration did all the legwork. We had a whistleblower, 
Jason Burnett, who worked for the Bush administration, tell us, 
talk about e-mails. There was an e-mail that was sent from the 
EPA that the White House under George W. Bush never opened 
because they said if they opened it, they would have to act.
    Now, finally, you sent an e-mail to the Obama 
administration and my understanding is they opened it, and we 
should have this endangerment finding.
    Now, here is the thing. If you think, as you just said, 
that the science is real, don't delay because lives are at 
stake. Don't delay. Now, this whole flap reminds me a lot of 
the flap over tobacco. There were scientists who said smoking 
causes lung cancer, and there were outliers who said no. A lot 
of them were paid by the tobacco companies.
    And let me just say this. I am sure there were many, many 
e-mails, because I remember that there were letters and e-mails 
on this. I only care about one thing, seriously. If anyone 
broke the law by hacking in, put them in jail. If anyone broke 
the law by defaming somebody, and you could prove defamation, 
do what you have to do.
    All I care about is one thing, and that is the real science 
and whether or not people are in danger. And I urge you to move 
forward because, again, we have a letter from the head of the 
American Association for the Advancement of Science saying e-
mails aside, the fact is the evidence is overwhelming. And then 
we have other scientists stepping up to the plate.
    Now, people write ridiculous e-mails when they are in the 
middle of a fight. And to me what is important is, e-mails 
aside, is there global warming? Is it being affected by human 
activity? And there is nothing out there, nothing, that says 
otherwise.
    To delay an endangerment finding would be a very dangerous 
thing to do. That would endanger the public. That would 
endanger the public. We need to move forward.
    The Bush administration hung up that e-mail and never got 
to it because they knew. And to their credit, their people, 
their scientists, their lawyers, they knew that this was a 
danger. And now, finally, we are on the verge of getting that 
endangerment finding.
    So, I always, whenever my Ranking Member asks me to hold a 
hearing to look at an issue, I always say I will absolutely 
work with him to do that. But as I look at this, you have to 
understand we are dealing with the breaking of the law here. We 
are dealing with probably a criminal act of hacking into a 
computer. And to me, what is important here is what is the 
science, regardless of what one scientist thinks of another, 
and he writes the nastiest e-mail, I think it is a foolish 
waste of his time. Ridiculous.
    But what impacts my constituents, who live in a State that 
borders on the coast, who live in a State that is dependent on 
agriculture, on the forests, on a water system that depends on 
snowfall? What I want to know is the truth about global 
warming, not what one scientist is snipping or at another one. 
It is silly. It is ridiculous.
    And I am happy to look at it. We have those e-mails, even 
though they were gotten illegally, they have been put up so we 
are going through them. It seems to me they must have been 
hacking this for years, and just before Copenhagen, they came 
out with these. That is what is seems to be because these e-
mails, they go back--how many are there? Over 1,000 e-mails? So 
I don't know how long, 1,000 e-mails. And now all of a sudden 
they came out with these e-mails.
    So yes, we will look at Senator Inhofe's request, and I 
want you to know, Senator, we have written to the leading 
scientists in America to ask them their opinion. Have they 
changed their point of view? And so far, we are getting the 
letters in. They have not. And to me, that is all that matters. 
This is the Environment Committee, not the committee where we 
look at who broke laws and what it means, and if someone 
defames somebody. So that is where we are.
    On TSCA, I reiterate my commitment. I apologize that this 
hearing got turned around on us. It is wrong, but I cannot 
possibly in good faith not lay out what I think is the truth 
here because there are some over the top speeches going on that 
I think are crazy, not the people giving them, but the speeches 
make no sense to me. They are talking about Climategate. I 
think it is e-mail theft-gate.
    So let's just get to where we want to get to, which is make 
sure the science is real, and we are going to do your TSCA 
bill, and we are looking forward to seeing it introduced.
    Senator Lautenberg. Thank you.
    Senator Inhofe. Mr. Chairman.
    Senator Lautenberg. I wonder whether there is an intention, 
Senator Boxer, to discredit science support for these things by 
introducing the other subject, and it is not appropriate for 
this committee hearing.
    Senator Inhofe. Well, let me answer that question, Mr. 
Chairman. And I want to put something in the record also that I 
think is appropriate.
    The reason it is important for me to ask the question is 
because in response to our questions, Madam Administrator, you 
stated during the proposed endangerment findings, quote, now 
these are your words, ``The Agency relied in large part on the 
assessment reports developed by the Intergovernmental Panel on 
Climate Change.''
    Now, I know that is true, and here we have the two top 
scientists in IPCC under investigation, and that is why I think 
it is perfectly legitimate for us to make the request that you 
suspend anything further on this.
    I ask that this be----
    Senator Lautenberg. I ask that you try and move things 
along here.
    Senator Inhofe. OK.
    Senator Lautenberg. Right, I mean, just because they may 
have done something that is inappropriate, and I don't know 
there was, I think in all fairness, Senator Inhofe, we have got 
to move with the subject here at hand, and then take whatever 
action you would like at a later time.
    Senator Inhofe. Sure. Thank you.
    Senator Lautenberg. Senator Whitehouse, will you please 
speak up?
    Senator Whitehouse. Thank you, Chairman Lautenberg.
    Senator Lautenberg. Oh, wait. I am sorry. It goes to 
Senator Bond. Forgive me.
    Senator Bond. Thank you very much, Senator. You are an 
excellent subcommittee Chair. And I appreciate so much the 
opportunity to pursue what I think is a very real question 
about the science that we must address, and it is critically 
important.
    Madam Administrator, let me read you some e-mails, and I 
would ask your comments.
    From Phil Jones, the head of U.K. Climate Research Unit, 
who e-mailed on July 8th, 2005, to Mike Mann: ``I can't see 
either of these papers being in the next IPCC report. Kevin and 
I will keep them out somehow, even if we have to redefine what 
the peer-review literature is! Cheers, Phil.''
    Now, that is the Intergovernmental Panel on Climate Change, 
the fellow scientist is Kevin.
    Madam Administrator, would you condone EPA scientists 
trying to block publication of dissenting views?
    Ms. Jackson. I have committed to transparency at EPA. I 
believe that scientific rigor comes from transparency and 
openness.
    Senator Bond. I agree, and I appreciate that.
    Next, from Tom Wigley, a scientist at the U.S. University 
Corporation for Atmospheric Research, e-mailed on April 24, 
2003: ``One approach is to direct to the publishers. Mike's 
idea to get editorial board members to resign probably will not 
work. Must get rid of Hans von Storch.'' He was the journal 
editor.
    Would you condone EPA scientists trying to blackball or get 
rid of holders of dissenting opinions?
    Ms. Jackson. I would hope that EPA scientists would spend 
their time working on science and on working in a more 
collegial matter than may be inferred from the e-mails that you 
are reading.
    Senator Bond. Thank you.
    From Michael Mann of the Pennsylvania State University, e-
mailed on February 9, 2006: ``I wanted you guys to know that 
you are free to use R.C. in any way you think would be 
helpful,'' and I would note that that is the Real Climate 
Internet blog, parenthetically, ``use R.C. in any way you think 
would be helpful. We can hold comments up in the queue and 
contact you about whether or not you think they should be 
screened through or not, and if so, any comments you would like 
us to include.''
    Does that sound to you like they are manipulating the 
comment record to block comments? I assume that would be 
intolerable at the EPA, would it not?
    Ms. Jackson. We have standards that have to go toward 
regulation. It is hard for me to tell from the context there 
whether he is talking about a personal blog or some other 
document. It is very difficult for me to know what he is 
talking about there.
    Senator Bond. We will make these available to you and I am 
sure you will be----
    Ms. Jackson. Yes, I have seen the ones online for sure.
    Senator Bond. A fourth question is from Kevin Trenberth of 
the U.S. National Center for Atmospheric Research on October 
12, 2009: ``The fact is that we can't account for the lack of 
warming at the moment, and it is a travesty that we can't.''
    Now, Madam Administrator, would you be concerned if EPA 
scientists were saying one thing publicly, but behind the 
scenes were voicing fundamental doubts over the ability to 
square the actual scientific facts with their assertions?
    Ms. Jackson. I smile, Senator, because EPA scientists are 
an outspoken bunch, but they tend to make their opinions known, 
and they have, because they are Government employees, an 
obligation to public trust to be honest and open and 
forthright.
    Senator Bond. I would have thought that these people from 
the IPCC would have had some obligations as well, but it is 
appearing that they don't.
    Finally, all these e-mails indicate unethical and 
potentially illegal behavior by climate scientists around the 
world, the ones who are the strongest supporters and the real 
authorities for the assertions and the extrapolations on 
climate change.
    The Union of Concerned Scientists said yesterday that if 
true, these actions are ``a serious breach of scientific ethics 
and public trust,'' from the BNA 2009, December 2.
    Would you agree that these actions, if they represent--if 
true, do represent a serious breach of scientific ethics and 
public trust?
    Ms. Jackson. Senator, I hesitate to pass judgment on 
something that I have not reviewed, and I am not an attorney by 
training. What I do know is that from the standpoint of the 
idea of scientific openness, collegiality, transparency, 
sharing of information, certainly there are at least questions 
and discussion, it sounds like, will continue on those.
    Senator Bond. OK. Well, we appreciate your looking at it 
because if this pattern of egregious misbehavior of the 
scientists does raise real and significant questions about the 
validity of the views they have presented, then I think we have 
to take a much deeper look.
    I thank you, and I thank the Chair for your indulgence.
    Senator Lautenberg. Thank you very much.
    I was asked by the Chairman of the committee to enter a 
copy of an interview that was done with Dr. Pachauri, who 
chairs the Intergovernmental Panel on Climate Change. He stood 
by his panel's 2007 findings, called the fourth assessment 
report of the panel. ``This private communication in no way,'' 
referring to the hacking, ``in no way damages the credibility 
of the findings,'' he told Reuters in an e-mail exchange.
    [The referenced information was not received at time of 
print.]
    Senator Lautenberg. And we have verification by so many 
science organizations that asked to be recognized that I think 
that to go further here is an interrogatory that we ought not 
to carry on with.
    Now, Senator Whitehouse, please.
    Senator Whitehouse. Thank you, Chairman.
    To sort of I hope put somewhat to rest this question, does 
anything that you are aware of from this e-mail kerfuffle raise 
any problem with the ethics or the credibility or the validity 
of findings made by the American Association for the 
Advancement of Science or the American Chemical Society or the 
American Geophysical Union or the American Institute of 
Biological Sciences or the American Meteorological Society, the 
American Society of Agronomy, the American Society of Plant 
Biologists, the American Statistical Association, the 
Association of Ecosystem Research Centers, the Botanical 
Society of America, the Crop Science Society of America, the 
Ecological Society of America, the Natural Science Collections 
Alliance, the Organization of Biological Field Stations, the 
Society for Industrial and Applied Mathematics, the Society of 
Systematic Biologists, the Soil Science Society of America, or 
the University Corporation for Atmospheric Research?
    Ms. Jackson. I am not aware of anything, Senator, that goes 
to their credibility or the longstanding, and it sounds like 
continuing consensus, overwhelming number of scientists who 
continue in their consensus regarding climate science.
    Senator Whitehouse. In terms of, turning to the TSCA 
issues, it is frequently the tactic of the polluting industries 
and of those who serve their ends to engage in the spread of 
doubt about the science--not to challenge it directly, but just 
to encourage the spread of doubt, and also to seek delay so 
that dangerous products can be marketed for a longer period of 
time before regulators can catch up with them and protect the 
public.
    There is a bit of a conflict between those two in that if 
you wait for absolute scientific certainty, if there even is 
such a thing, since science is a process of questioning, you 
probably are defeated on the delay front. And if you try to 
make reasonable accommodation for delay, that raises the issue 
of scientific doubt, which improperly understood, can be used 
as an unfair and improper rhetorical tool.
    In that context and in terms of these--what is it? There 
are 80,000 chemicals out there?
    Ms. Jackson. Eighty-thousand.
    Senator Whitehouse. Eighty-thousand. So it is 79,995 that 
have not received regulatory action. That is a lot of work 
ahead of you. How do you balance the need to avoid delay where 
public health is concerned, the incredible workload of trying 
to plow through 79,995 TSCA chemicals that have not had a 
determination yet, and at the same time reach adequate science 
so that you don't fall too vulnerable to the doubt challenge 
that is raised so often on behalf of polluters?
    Ms. Jackson. That balance is one that is not unfamiliar to 
EPA or to me in my career. Allow me a moment to just simply 
point out that in the space between that doubt and that delay 
stands the American consumer, the American people who simply 
want some assurance that Government is looking out for their 
interests in that space.
    So they want a high quality of living. Of course, they want 
to be able to buy things for their family and give them what 
they want or need and sometimes want. But we, as the 
Government, and I believe EPA in particular have a role to play 
and needs some help from Congress to play it.
    To answer your question more directly, prioritization will 
be key. Efficiency in the rulemaking process will be key. EPA's 
success will be tied initially to a strong piece of legislation 
that gives us clear standards and clear direction but also 
gives us some amount of flexibility to make decisions.
    And our obligation, if we are able to get that obligation, 
will be to do it in an efficient and timely manner. Because if 
you don't make a decision, as I have said often during my 
career, that answer is really no, because that delay, that time 
period is time when a concern grows and builds and may become 
even ubiquitous in the marketplace such that by the time you 
know you have a problem, it is too late.
    Senator Whitehouse. Thank you, Administrator Jackson.
    Senator Lautenberg. Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    Just one quick question at the beginning here. As we move 
forward with energy legislation, I have always said one way to 
build support for it is by making sure that people have skin in 
the game across the country, that they see part of the action 
here.
    And certainly biofuels are a piece of this. I have talked--
I know Secretary Chu is a fan of moving ahead to the next level 
of research with biofuels. And I just wanted to quickly follow 
up. I sent a letter to you yesterday urging you to move forward 
with the E15 waiver request. And if you could just reiterate 
what you announced yesterday and what the studies are showing.
    Ms. Jackson. Thanks, Senator. Thanks for your letter, and 
thanks for the conversations we have had along the way during 
the process on the waiver, and of course, the outstanding 
renewable fuels to regulation that is out there as well.
    What we did yesterday was announce that December 1st was 
actually the deadline for a decision on the waiver. And we did 
not want that date to pass without saying anything because we 
were afraid that the industry would construe that to be more 
negative than the current amount of data that we have are.
    We have testing from two vehicles. We are waiting for 
testing from about a dozen and a half more. Two vehicles 
doesn't seem enough to make a determination on the waiver, but 
that data shows that E15 is appropriate for newer vehicles, 
2001 model year and newer.
    So what we said was that--we stated where we are with data. 
We said we need more time. We acknowledged that the Department 
of Energy--you mentioned Secretary Chu--they are doing the 
testing, with our money, in part, and that that testing would 
come in in May.
    And in the meantime, because EPA foresees a need to be 
forward-looking about biofuels in general, as we see our 
country continuing to move in that direction, that we would 
look at a labeling work group because if you are talking about 
a fuel that can be used in some applications and potentially 
not others, if the data continued to show what they are showing 
now, we are going to need to make sure that consumers 
understand that, have appropriate labeling so they can't 
accidentally or inadvertently make a decision and not realize 
what is going on with fuels.
    Senator Klobuchar. Very good. Thank you very much, 
Administrator Jackson.
    I wanted to follow up also on, as we get to the chemicals 
here, the formaldehyde issue. I notice that Mr. Stephenson, who 
will be testifying on the next panel, in his written testimony 
noted that there has been some push to adopt the California 
formaldehyde regulation. EPA recently issued an advance notice 
of proposed rulemaking suggesting some regulatory options to 
limit the exposure to formaldehyde.
    However, because of the legal hurdles the Agency would face 
in regulating formaldehyde under TSCA, some stakeholders have 
recommended that EPA pursue legislation instead. As you know, 
we are working on, for at least this piece of it, for the wood 
products that we are dealing with here, that we have introduced 
some legislation.
    I just wondered if you could talk about the importance of 
regulating formaldehyde and the dangers that it poses at high 
concentration levels.
    Ms. Jackson. Well, Senator, EPA is pursuing regulatory 
action for formaldehyde. Formaldehyde is, as we sit here, a 
known eye, nose, throat irritant, currently classified as a 
carcinogen. The difference is in time, I think. And right now, 
the risk information and science that EPA is doing is going to 
take longer than this year. In fact, I believe the risk 
assessment will be for cancer and non-cancer effects, and the 
target completion date is fall of next year.
    So we have a bit of a disconnect in terms of timing from a 
regulatory perspective.
    Senator Klobuchar. All right. Thank you. And that is one of 
the reasons with the composite wood products, at least, so we 
are pursuing this.
    Just in general, with the TSCA legislation, can you talk 
about new scientific methods and discoveries that are necessary 
to determine risks that are posed by chemicals, reasons that we 
would want to be updating this legislation?
    Ms. Jackson. Well, certainly, our analytical capability has 
improved over the years so that we can see lower and lower 
doses, if you will, amounts of chemicals that might be present, 
biomonitoring indicators. Things like cord blood, we heard 
about earlier, are available to help us understand what is 
showing up and where so that we can prioritize what we work on 
and also use that information on the dose side.
    And then on the response side, we are learning more about 
end points that we never considered along the way. And the 
industry is as well. I mean, I think it is very important to 
note that the vast majority of this data comes from industry. 
One of the great failings right now with the current statute is 
on the information exchange piece. EPA doesn't have the ability 
to quickly get the data that industry may already have.
    And although we have a standard of care to ensure we don't 
do anything to hamper competitiveness with real confidential 
information, a lot of information is currently marked 
confidential that EPA either can't or doesn't challenge in 
terms of being able to get information out to other scientists 
who might be able to also evaluate that material as well.
    So a lot has changed, a lot for the good, but I think this 
statute is one that where there is tremendous opportunity to 
modernize it in a way that will helpful to the public sector, 
to the private sector, but most importantly to Americans.
    Senator Klobuchar. Thank you very much.
    Ms. Jackson. Thank you.
    Senator Lautenberg. Senator Merkley. Senator Udall.
    Senator Udall. That is OK, Senator Lautenberg. We are both 
from the West anyway.
    [Laughter.]
    Senator Lautenberg. That is the conclusion I came to.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Senator Lautenberg, thank you for your 
leadership on these very important issues that are before us 
and in particular your leadership with regard to toxic 
substances.
    Administrator Jackson, I believe that your testimony laid 
out very clearly the current problems with TSCA, and I would 
like to add my voice to those here today calling for reform.
    It is really sad to me that where we are today--you look 
back in history, and 50 years ago Rachel Carson wrote a book, 
Silent Spring, and she talked about how toxic substances were 
impacting wildlife. And the country became outraged, and there 
was this huge uproar, and we took action to do something about 
toxic substances in that context.
    And as you have said the public expects-- and I think the 
public believes today--the Government is out there filling the 
space, trying to do and take very important actions on toxic 
substances. And in fact, as we have heard today through your 
testimony and what the committee has put together, there are 
big holes, and there are big voids in terms of our ability to 
move forward.
    And what I would like to ask you about revolves around what 
the European Union is doing, because there are countries that 
are very active in trying to protect their citizens, and the 
European Union recently finalized its new chemical regulatory 
program called--the acronym is REACH, but it is registration, 
evaluation, authorization and restriction of chemical 
substances.
    It is my understanding that most chemical producers in the 
U.S. are producing for the global market or are producing 
chemicals that are also produced in Europe. As a result, 
despite the weaknesses of our laws, will EPA and State 
regulators be getting a wealth of information on these 
chemicals due to the E.U. program? And will EPA be able to take 
advantage of this new information submitted to the E.U. program 
to take action under our existing laws?
    Ms. Jackson. Yes, Senator. I think the opportunity here is 
to avoid duplication as much as possible. And you are 
absolutely right that the E.U. and some States have started to 
move down this pathway in varying degrees, and certainly our 
neighbors in Canada as well.
    Now, the E.U. process is probably the most data intensive 
of them all. And it would be foolish of us to not use data that 
is coming in from other sources and be informed by it. We have 
a good relationship. We intend to continue to work that, so 
hopefully we can have that result.
    Senator Udall. Now, you are talking about you have banned 
five substances. Is that correct? How many has the European 
Union banned that you are aware of?
    Ms. Jackson. I actually don't know the answer to that, 
Senator.
    Senator Udall. OK, if you could submit that, that would be 
very helpful to me. I would like to look at what we have 
banned, what they have banned, what other State regulators have 
banned, and how far behind are we at the national level in 
looking at chemicals that are out there that have already been 
banned when there has been an intensive scientific process.
    As many of the witnesses said before me and many of the 
Senators, this idea we want this to be based on science, but we 
also, after it is based on science, want to take action based 
on science to protect the public.
    Now, let me ask you an additional question here, because 
you, despite the limitations of TSCA here in the United States, 
you are taking a number of actions on certain known dangerous 
chemical compounds such as BPA and phthalates, which led to the 
public--is that the way to say it?--which led to the public 
scare about toxic chemicals in baby toys and water bottles.
    How did EPA determine the priorities for acting on 
potentially toxic chemicals given that our laws do not provide 
EPA with adequate information? EPA has stated its intent to 
formally engage stakeholders and the public in a discussion of 
prioritizing chemicals for future risk management. Recently, 
there has been a great deal of concern about endocrine 
disrupters and other chemicals that can have a very large 
developmental impact at very low doses. These impacts are not 
fully understood by the public.
    Which types of chemicals will EPA be looking at when it 
sets priorities for action next year?
    Ms. Jackson. As you mentioned, we are on 4 out of 80,000, 
and so as you can imagine, that was a relatively easy decision. 
We tried to stick to ones that were almost, I hate to use the 
word no brainers, because people can argue over things, but 
phthalates----
    Senator Udall. Where the science was very strong.
    Ms. Jackson. Yes, where we know that if we can, the 
American people expect us to take action if we can. And I 
should point out also that not every action is a ban. In fact, 
oftentimes it is not a ban at all. It may be other risk 
management. It could be labeling. It could be information. It 
could be an order to get more information.
    But to answer your second question, for the next chemicals 
in the action orientation, we will initiate a stakeholder 
dialogue to try to continue to expand that list. But I would 
simply say that what that list is about are not final actions. 
To the extent that a chemical gets on that list and EPA 
determines that some action is needed, that entire process is 
subject to public comment as well.
    And so it is once again that idea between delay and trying 
to move forward aggressively, to show the American people that 
although as I sit here I say TSCA is broken and needs to be 
fixed, we are going to do whatever we can to use that statute 
the best we can in the interim, because we know that we need to 
give you time to work.
    Senator Udall. All right. Thank you for your hard work over 
there.
    And thank you, Senator Lautenberg, sorry running over a 
little bit, but her answers are very important, I think, for 
the record.
    Senator Lautenberg. Sorry I have to call out the more 
senior----
    Senator Udall. I do have more seniority than Merkley. You 
are right about that.
    [Laughter.]
    Senator Lautenberg. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Administrator Jackson, just a couple of quick things. You 
and I have in the past talked about the Wall Street Journal 
report this past summer about Dr. Alan Carlin and a colleague 
who prepared a 98-page analysis, and that analysis argued that 
the EPA should take another look at the EPA's scientific data 
behind the endangerment finding that carbon dioxide is a threat 
to public health.
    As reported in the Journal, a senior EPA official 
suppressed this detailed account produced by Dr. Carlin. The 
response was that an e-mail from his boss, Al McGartlin, 
forbidding him ``from any direct communication'' with anyone 
outside of the office with regard to his analysis. His 
credibility was attacked in the press with regard to his report 
when it was publicly released.
    Now that we have this new data coming forth in terms of the 
U.N.'s IPCC reports, and those reports have been put into 
question because of the leaked e-mails, we know that the EPA 
has relied heavily on the U.N. reports. And it would appear 
that Dr. Carlin may have been vindicated.
    Do you think that Dr. Carlin is owed an apology by the 
Administration?
    Ms. Jackson. I just want to be clear, Senator, because 
there is absolutely no connection I am aware of between Dr. 
Carlin's work that went on for years before I got to EPA and 
this latest e-mail issue that is being discussed here today. I 
am not aware of any.
    And my response to Dr. Carlin's situation was that when he 
made allegations that his work wasn't being heeded or that he 
wasn't being allowed to post information on his Web site, the 
thing I said was let him do it, and give us your information. 
It turns out he had given it many times in the past to EPA 
scientists, and his information is part of the record of 
comments for the endangerment draft finding that now has to be 
responded to. So his information is in the record and will be 
responded to by scientists. That is our obligation.
    Senator Barrasso. Well, it seems to me that his criticism 
was that the EPA was relying too heavily on outside sources for 
its data, so I think that the criticism would be valid if the 
EPA truly has been relying on outside sources for its data 
rather than doing its own research work.
    So those are the issues, and as I look at this and the 
leaked e-mails from the University of East Anglia's Climate 
Research Unit, do you believe that the EPA has relied too 
heavily on outside sources of data as now we see that some of 
this data is being called into question?
    Ms. Jackson. Well, EPA does emissions monitoring. When 
facilities emit and report, we have information right now. It 
is voluntary, but as you know, beginning in January of next 
year, there will be mandatory reporting for large facilities.
    But EPA is not, you know, we don't send up weather 
satellites. We are not authorized to do major atmospheric 
modeling except in the context of the Clean Air Act. So it is 
incumbent on EPA in looking at the science to look at other 
people's data and to look at science's interpretation of that 
data. And we look at a number of sources, and the endangerment 
finding in its draft form cites those sources.
    Senator Barrasso. Because I got the impression from Dr. 
Carlin's comment that he couldn't think of any instance where 
EPA depended so heavily on non-EPA synthesis reports to justify 
a proposed regulatory action over all of his years with the 
Agency.
    Ms. Jackson. Well, that may well be his opinion. I don't 
know, and I haven't reviewed whatever source you are citing. 
What I will say is that EPA relies on science all the time. And 
in fact, it is bit contradictory to say we should get our own 
data and not look, but then so often what we do at EPA is work 
with groups who have better science.
    When we talk about TSCA here today, the vast majority of 
the chemicals risk data is generated by producers or importers 
of chemicals. So much of what we do at EPA relies on science 
and information that is collected and that we are under 
obligation to do the very best job we can of evaluating.
    Senator Barrasso. What I just heard you say is you want to 
rely on reports of better science. And I am just not sure, in 
light of these recent e-mails, that the things you were relying 
on actually were better science. And that is why I have written 
a letter to ask that you look into some of these things.
    Ms. Jackson. And I understand that, Senator. I just have to 
repeat again for the record that nothing I have seen, and I 
certainly have my ear to the ground, causes me to be concerned 
about the validity of the science. And I think we have heard 
that the consensus on the science, not on the process, not on 
whether judgment was poor, not even on legal issues, but on the 
science, has changed.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman. My time has expired.
    Senator Lautenberg. Thank you, Senator Barrasso.
    And thank you, Administrator Jackson, for your excellent 
testimony and your unflappability.
    [Laughter.]
    Senator Lautenberg. And the next panel, we have Mr. 
Stephenson and Ms. Linda Birnbaum. We invite you to the witness 
table. Thank you for your patience and durability.
    Mr. Stephenson is Director of Natural Resources and 
Environmental Issues at the Government Accountability Office, a 
very important post. We welcome you here.
    And Dr. Linda Birnbaum, Director of the National Institute 
of Environmental Health Sciences.
    And I think each of you has been experienced enough around 
the Hill to know because there are no other bodies sitting at 
the table doesn't mean a lack of interest, or rather that the 
record will clearly show what you have to say. We are pleased 
to have you here. I am sorry that is has taken so long for me 
to manage my trip through this chairmanship here.
    Everybody is interested in what is going on. Environment is 
something that we are committed to work on, to recover a lot of 
years of neglect, and we thank you.
    Please, Mr. Stephenson, please.

 STATEMENT OF JOHN STEPHENSON, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman.
    I am here today to discuss the need to transform EPA's 
processes for assessing and controlling toxic chemicals. As has 
been mentioned, EPA's ability to effectively implement its 
mission of protecting human health and the environment is 
critically dependent upon credible and timely assessments of 
the risk posed by toxic chemicals. Such assessments are the 
cornerstone of scientifically sound environmental decisions, 
regulations and policies.
    In over a dozen reports over the past several years, we 
have recommended both statutory and regulatory changes to, 
among other things, strengthen EPA's authority to obtain 
additional information from the chemical industry, shift more 
of the burden of chemical companies for demonstrating the 
safety of their chemicals, and enhance the public's 
understanding of the risk of chemicals to which they may be 
exposed.
    In January 2009, as you mentioned, we added transforming 
EPA's processes for assessing and controlling toxic chemicals 
to our high risk list, a designation GAO uses to focus 
attention on the Government's most intractable problems. EPA 
has taken positive actions consistent with our recommendations 
to improve IRIS processes for assessing chemicals.
    Now, it is up to Congress to determine the best way to 
amend TSCA to provide EPA the tools that it needs for 
controlling toxic chemicals more effectively. TSCA as currently 
written places nearly all of the burden for obtaining chemical 
risk data on EPA, rather than on chemical companies, and the 
procedures EPA must follow to obtain test data from companies 
takes many resources and years to complete.
    For example, the Act requires EPA to demonstrate certain 
health and environmental risks before it can require companies 
to further test their chemicals. This is something of a catch-
22. EPA cannot require testing to determine the risk of a 
chemical until it determines that the chemical poses a risk. As 
a result, EPA does not routinely assess the risk of thousands 
of chemicals currently in use.
    In addition, TSCA does not require chemical companies to 
test the approximately 700 new chemicals introduced into 
commerce each year for toxicity, and companies generally do not 
voluntarily perform such testing.
    Moreover, while it is true that TSCA authorizes EPA to ban, 
limit or otherwise regulate existing toxic chemicals, EPA must 
meet a very high legal threshold before it can do so. For 
example, TSCA states that EPA must demonstrate that a chemical 
possesses unreasonable risk. It also must provide substantial 
evidence in support of any action it takes to ban or limit 
chemical usage. To meet this legal threshold, EPA must conduct 
extensive cost-benefit analysis that can take many taxpayer 
resources and years to complete.
    Since 1976, EPA has used TSCA authority to control only 
five chemicals, and often-used statistics, five chemicals in 
30+ years. The case of asbestos illustrates the problem. After 
over 10 years of study and nearly unanimous scientific opinion, 
EPA in 1989 issued a rule phasing out most uses of asbestos. 
Yet in 1991, a Federal Appeals Court vacated the rule because, 
in the court's view, it was not justified by substantial 
evidence.
    Meanwhile, the European Union and a number of other 
countries have long since banned asbestos, a known human 
carcinogen that can cause lung cancer and asbestosis.
    In addition, because of TSCA's prohibitions on the 
disclosure of confidential business information, EPA has 
limited ability to share information on chemical production and 
risk with others such as State and local governments with a 
legitimate need for the information or with the general public 
who want information on the potential risk chemicals pose.
    About 90 percent of the notices companies have provided to 
EPA on new chemicals contain some information claimed as 
confidential. While companies may be overly using this 
designation, evaluating the appropriateness of such claims 
presents another burden and is something that EPA simply does 
not have the time and resources to pursue.
    Our work clearly shows that EPA does not currently have the 
authority it needs to develop sufficient information to support 
critical decisions regarding how to protect human health and 
the environment from toxic chemicals. In our previous reports, 
we have recommended both statutory and regulatory changes to, 
one, strengthen EPA's authority to obtain additional 
information from the chemical industry; two, shift more of the 
burden to chemical companies for demonstrating the safety of 
their chemicals; and three, enhance the public's understanding 
of the risk of chemicals to which they may be exposed.
    Without greater attention to EPA's efforts to assess and 
control toxic chemicals, the Nation lacks assurances that human 
health and the environment are adequately protected.
    That concludes the summary of my statement, Mr. Chairman.
    [The prepared statement of Mr. Stephenson follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Lautenberg. Thank you very much.
    Ms. Birnbaum, we welcome your testimony.

 STATEMENT OF LINDA BIRNBAUM, DIRECTOR, NATIONAL INSTITUTE OF 
                 ENVIRONMENTAL HEALTH SCIENCES

    Ms. Birnbaum. Senator Lautenberg, I am pleased to appear 
before you today to present testimony on our current 
understanding of chemical hazards.
    My name is Linda Birnbaum. I am a Jersey girl, and I am the 
Director of the National Institute of Environmental Health 
Sciences, one of the National Institutes of Health. And I am 
also Director of the National Toxicology Program.
    Environmental health science has made tremendous strides 
since passage of the original Toxic Substances Control Act. To 
begin with, our understanding of chemical toxicity has been 
challenged by the new science of epigenetics. Epigenetics looks 
at how DNA is packaged and how that affects the expression of 
our genes. Research is showing us that toxic substances in our 
environment can cause epigenetic changes that are passed down 
for several generations. Unfortunately, it appears that health 
problems associated with these epigenetic changes can also be 
passed down through several generations. This new understanding 
heightens the need to protect our children from dangerous 
substances at critical times in their development.
    Research has shown us that normal development of the fetus, 
the infant and the child can be disrupted by relatively low 
doses of certain chemicals. These developmental stages are 
windows of susceptibility or times when people have an 
increased vulnerability to the effects of toxic chemicals. This 
concept was first established for neurodevelopmental toxicants 
like PCBs, lead, mercury and other metals, but it also applies 
to hormonally active agents such as bisphenol A, which we call 
endocrine disrupting chemicals.
    The NIEHS co-funds with the National Cancer Institute a 
Breast Cancer and Environment Research Program. Researchers in 
this program are determining if windows of susceptibility exist 
in the development of the mammary gland and if exposures to 
environmental agents during these vulnerable periods of 
development increases the risk for breast cancer in adulthood.
    Toxicity research must extend to health end points beyond 
cancer and birth defects. For example, NIEHS is supporting 
research on the origins of obesity and the theory that 
environmental exposures during a child's development play an 
important role in the current epidemic of obesity, diabetes and 
metabolic syndrome. There are data showing weight gain in rats 
and mice after developmental exposure to a number of different 
environmental chemicals. That is why we need to start thinking 
about obesity not just in terms of genetics and lifestyle but 
also in terms of environmental chemicals. These kinds of health 
outcomes will need to be considered in assessing toxicity.
    Furthermore, all of us are exposed to many different 
chemicals at the same time, not just one chemical at a time, 
the way they are usually tested in the lab. Scientists have 
labored to come up with ways to estimate risk from combinations 
of compounds. One example is the method used for dioxin and 
related compounds. Dioxin is a known human carcinogen. 
Scientists believe that related chemicals such as furans and 
some PCBs cause cancer in similar manners as dioxin. The 
question for public health officials was how health standards 
could be adjusted to take into account the fact that people are 
always exposed to mixtures of dioxin-like compounds, not just 
one at a time.
    To address this problem, a method was developed to estimate 
toxicity of mixtures of dioxin-like compounds based on toxic 
equivalency factors. The methodology was tested and confirmed 
by the NTP, by EPA and others. Now, this methodology is also 
applied to other health end points, including reproductive and 
developmental, immune and neurological.
    The route of exposure must also be considered. For example, 
initial studies on the inhalation of hexavalent chromium showed 
it causes lung cancer in humans, but there was question whether 
its presence in drinking water was a problem when the chemical 
was ingested.
    Additional studies by the NTP showed that oral consumption 
of hexavalent chromium causes cancer in laboratory animals at 
concentrations that are not much higher than what can be found 
in people. This clearly shows the need to test different routes 
of chemical exposure when assessing toxicity.
    The EPA's new arsenic standards for drinking water 
exemplify how our research can inform decisions to protect 
public health. The NIEHS Superfund Research Program, which is 
authorized by this committee, funded research on arsenic 
metabolism, disease pathogenesis by arsenic, and detailed 
exposure assessment. These studies provided the scientific 
basis for a drinking water standard that protects Americans 
against arsenic exposure and resulting health problems such as 
cancer, diabetes, neurological and cardiovascular disease.
    TSCA reform can be built upon vastly improved and less 
expensive toxicological testing methods. The NTP is laying the 
foundation for this testing paradigm in partnership with the 
National Human Genome Research Institute and the EPA. The new 
methods for quantitative high throughput screening assays can 
be used to test a large number of chemicals simultaneously, 
dramatically increasing the rate at which chemicals can be 
prioritized for further testing.
    Over the past 33 years, we have significantly expanded our 
understanding of chemical exposures and health. It only stands 
to reason that TSCA would at some point be updated to account 
for scientific progress. We must have the ability to harness 
new technologies and our growing knowledge. We are poised to 
move forward, and new tools will provide for research and 
development to create the comprehensive testing our citizens 
deserve under revitalized TSCA.
    Thank you, and I would be happy to answer questions.
    [The prepared statement of Ms. Birnbaum follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Lautenberg. Thank you both. Again, not for your 
endurance, but your wonderful testimony. We appreciate it.
    I wanted to just ask a couple of questions. First of all, 
an observation, Dr. Birnbaum. As you recite these connections 
between the materials and the result, I feel like we are using 
time that we ought to be getting the law polished up and get it 
into place in a hurry.
    And thank you, Mr. Stephenson. I understand that I 
pronounced your name incorrectly, and please forgive me. It 
happens to me a lot.
    The bio-monitoring studies have found that bodies of 
Americans contain hundreds of industrial chemicals, including 
some that are known or suspected to cause cancer. Should TSCA 
be reformed to give EPA better authority to restrict chemicals 
that are found in humans and known to cause health problems? 
Can enough research be done, or done reliably, to say that 
because it has already got a presence that we have noted, that 
EPA should be able to use that information and go-ahead and 
particularly go to those chemicals, restrict them from use?
    Mr. Stephenson. Yes, the 83,000 number of existing 
chemicals is kind of daunting. It is overwhelming. So we are 
supportive of a risk-based approach. Look at where the science 
is the strongest, where the chemicals are the most dangerous.
    What we are suggesting, though, is the legislation needs to 
be overhauled to make it easier for EPA to get data from the 
chemical industry to make it easier to require testing of 
certain chemicals it deems dangerous. And we think there are 
changes in the language in the law that can make it more 
consistent with other pieces of legislation that don't have 
such a high legal threshold, which will in essence give EPA 
better tools with which to do its job.
    So they have to work their way through this list of 
chemicals. Best guesses are that may be 20 percent of those are 
still in use today. A lot of these, 60,000 of these were 
grandfathered in 1976 when the legislation was passed. Are they 
still in use? We really don't know.
    So there needs to be a vetting process to get it down to a 
manageable number first and then those have some kind of risk-
based approach based on volume, based on uses, based on known 
scientific risk where they can use that to then start putting 
controls on those chemicals. And the legislation needs to be 
reduced for putting controls on chemicals to lower that legal 
threshold as well.
    Senator Lautenberg. I am an author of some legislation 
called the Right To Know, and that here we are. People have a 
right to know what the products they are using are dangerous in 
any way, and particularly as we look at infants and see, 
because of their susceptibility, and see that it doesn't often 
take a lot to do a lot of damage, a large quantity.
    Dr. Birnbaum, new techniques for testing the toxicity of 
chemicals are being developed so that scientists can obtain 
faster and more accurate results without relying on animal 
testing. Now, what might Congress do to accelerate the 
development and use of these 21st century testing techniques?
    Ms. Birnbaum. I think it is very important to understand 
that the TOX-21 Program in which we are involved provides great 
promise for the future. At this point in time, as we begin to 
generate literally reams and reams of data on thousands of 
chemicals, it will allow us to prioritize which chemicals are 
the bad actors and require more study.
    And frequently, at least for the foreseeable future, some 
of that study will still require testing in animals. But we 
will be testing faster and smarter, and we will be testing the 
chemicals that are of greatest concern.
    Senator Lautenberg. We have awaited EPA's assessment of the 
safety of certain chemicals for many years. By way of example, 
EPA's assessment of dioxin, one of the most potent toxins on 
the planet, has taken more than 18 years. Should EPA be able to 
move forward with safety assessments of chemicals in a more 
timely fashion, even in the face of uncertainty about some of 
the details of the chemicals' risk?
    Mr. Stephenson. Or Dr. Birnbaum.
    Ms. Birnbaum. Well, I just think the point is, science 
never provides 100 percent certainty, and I think it is very 
important that decisions be made in the presence of evidence, 
but not necessarily in the presence of certainty because that 
just doesn't happen with science.
    The more that you know, the more questions you have. And if 
you use dioxin as an example, the conclusions of EPA's draft 
reassessment, which I believe the Administrator has promised to 
finalize by the end of this year or shortly thereafter, has 
changed very little from the conclusions that were reached by 
an external peer panel, the first panel, in 1992, supported by 
an external panel in 1994 and again by an external panel in 
2000.
    Mr. Stephenson. If I could add, Mr. Chairman, the other 
part of this we haven't talked a lot about today is the 
integrated risk information system, which is EPA's process for 
managing scientific risk assessments of toxic chemicals. We 
have issued many reports on that and attempted to get EPA to 
streamline that as well.
    Administrator Jackson announced a new process about 6 
months ago which looks very promising. In its first test, they 
just put out a draft assessment on TCE, where all of the agency 
comments, including OMB's and DOD's and everyone else's are 
available for public scrutiny. That is real progress in terms 
of transparency in science from the old process that it 
replaced.
    So we are encouraged by that whole risk assessment process, 
but we still think it takes too long. As you mentioned, it 
takes years and years to complete a scientific risk assessment 
of a given chemical. And so we have offered in our reports over 
the years, ways in which we think that process can be 
streamlined.
    Senator Lautenberg. Yes, because you said overwhelming, 
80,000+, I mean. By the time you get to these, and again the 
first year out to understand whether or not they are still 
around. Maybe there are 60,000 of them that aren't used, not 
likely, used anymore. And also the addition of new items, as 
700 a year is the estimate of new chemicals that are introduced 
every year.
    So that means that if you only did 1,000 a year, you would 
barely stay ahead of the growth. And these products I think are 
important, can be very important as an addition to good health, 
but they have to be looked at. And frankly, I don't know how 
they are going to manage this data base. It is a huge one, but 
it can be done, and we must do it in the interest of public 
health.
    Dr. Birnbaum, chemicals called PBTs buildup in our bodies, 
fail to break down over time, are known to be toxic. Other 
governments have taken action to restrict most uses of these 
PBTs without putting those chemicals through a traditional risk 
assessment process. Might we provide a pathway for action to 
reduce the use of PBTs quickly, without waiting for the risk 
assessment to run its course?
    Ms. Birnbaum. Many of the countries of the world have 
accepted the fact that any chemical which is highly persistent 
and highly bioaccumulative will become toxic at some 
concentration. And in fact they utilize, in many cases 
appropriately, the precautionary principle to say that evidence 
of overwhelming persistence and bioaccumulation, even in the 
absence of full toxicity information, is enough to know that it 
is not a chemical that we want.
    And I can say that there probably, or that we know that 
there are many chemicals that industry started development on 
and because they were new chemicals, they found that they were 
persistent, or had the potential to be persistent, had the 
potential to bioaccumulative, and in many cases had potential 
to be toxic, those chemicals never entered the marketplace.
    And I think part of the problem has been that existing 
chemicals were not required to be examined with the same lens 
that new chemicals were looked at.
    Senator Lautenberg. Yes. What responsibilities do the 
primary developers of these products have on their own to do 
health analysis?
    Mr. Stephenson. Well, right now, I mean, the manufacturer 
is required to submit what is called a pre-manufacturing 
notice, which gives a little bit of information about the 
chemical. But certainly, they aren't required to provide any 
test data to show the safety of that chemical right now. The 
burden is essentially on EPA to show that the chemical is risky 
before they can require further test data from the industry.
    That is what we mean by there needs to be a little bit of 
burden shifting off of the Government and the taxpayer and onto 
the chemical industry who is producing these chemicals.
    Senator Lautenberg. Yes. And there is an old expression 
about polluter pays, and I don't see a lot of difference here. 
It is certainly something that deserves attention because, A, 
it expedites the process and reduces the risk to the public. 
And so whatever we can do there, because the task of analyzing 
all these, the products that have accumulated, their 
recognition over lots and lots of years, but it is so 
overpowering, I mean, to analyze that we ought to find ways to 
cut into that.
    Well, that is why the law is written. I thank you both for 
your attention and your willingness to stay so long, and 
excellent data. And we will keep the record open so that if any 
of the members of the committee have any questions they would 
like answered, we will hold it open for 2 weeks, so that if you 
get an inquiry, please respond.
    And I enter into the record, to close this meeting, a 
letter that has come from the Consumer Specialty Products 
Association, called CSPA, Grocery Manufacturers Association, 
GMA, and the Soap and Detergent Association, are pleased that 
the Senate Committee on Environment and Public Works has 
scheduled today's hearing concerning the Toxic Substances 
Control Act.
    These are the people who are making and selling products, 
and they support the modernization of TSCA and continue to urge 
Congress to establish a stakeholder process to develop the most 
comprehensive chemicals management policy in the world. And 
that is part of the record.
    [The referenced letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Lautenberg. It has been a very good hearing, and I 
thank all of you for your contributions.
    Those of you who were stuck with the seats there by either 
commitment to your client, representative or otherwise, we are 
glad you are here, too.
    Thank you all very much.
    This meeting is adjourned.
    [Whereupon, at 4:40 p.m. the committee and subcommittee 
were adjourned.]
    [Additional statements submitted for the record follow:]

                     Statement of Hon. Max Baucus, 
                 U.S. Senator from the State of Montana

    I am very pleased that the committee is considering the 
effectiveness and status of the Toxic Substances Control Act. 
The Toxic Substances Control Act was adopted in 1976 and was 
intended to establish protective regulations to prevent harmful 
exposure to chemicals of various types. Today, I look forward 
to hearing the assessment from our witnesses as to the 
effectiveness of this statute at achieving its goals. Based on 
the testimony submitted to the committee, it is clear that 
there have been some difficulties with the implementation of 
TSCA. I am particularly struck by the issues surrounding the 
use of TSCA to regulate asbestos.
    Montanans know about the harmful effects of asbestos. We 
know because of Libby. For those of you who don't know about 
Libby, Montana, it is a tragic story that evidences the 
devastating impact that asbestos exposure can have in one 
community.
    Libby, Montana, is a beautiful little town in northwestern 
Montana. It is surrounded by millions of acres of Federal 
forest lands. It is a Superfund site where hundreds of people 
have been sickened and died because of the pervasive presence 
of asbestos spewed from the vermiculite mining and milling 
operations of W.R. Grace. For decades, the W.R. Grace operation 
belched thousands and thousands of pounds of asbestos 
contaminated dust into the air in and around Libby, coating the 
town and its inhabitants with the deadly substance. People used 
expanded vermiculite to fill their gardens, their driveways, 
the high school track, the little league field, and in their 
attics. Mineworkers brought the dust home with them on their 
clothing and contaminated their own families without knowing 
that this dust was poison. Asbestos was everywhere in Libby, 
for decades.
    The type of asbestos in Libby is particularly deadly. The 
tremolite asbestos fibers found here quickly find their way 
into victims' lungs and stay there--essentially a time bomb 
waiting to strike. The impact on Libby has been severe. Today, 
we know that over 200 residents of Libby have died, and 
thousands are sickened with asbestos-related disease.
    The experience in Libby is truly unique. It is, in fact, so 
unique that earlier this year EPA Administrator Jackson 
declared Libby to be a ``public health emergency''--a 
distinction under the Superfund statute reserved for the most 
extreme cases, where the public health threat is so severe that 
special action is required to mitigate the immediate threat. 
EPA has never before used this authority, and the Agency 
indicates that there are currently no sites on the books that 
come close to the conditions at Libby.
    There is no question that asbestos exposure leads to 
respiratory disease, mesothelioma, and ultimately death. No one 
knows this better than the people of Libby, Montana.
    Yet, in spite of everything we know about the hazards of 
asbestos, in spite of a 10-year analysis and a 45,000-page 
record produced by EPA, the Agency was precluded from moving 
forward with an asbestos ban under a Court interpretation of 
TSCA. I am not an expert on every element of this analysis or 
every detail of the legal opinion in that case. However, I do 
know this--asbestos is deadly, no matter where it is used. The 
people of Libby, Montana, know this better than anyone. If 
TSCA, which was intended to give the Agency the authority to 
control toxic substances, cannot be effectively used to address 
even the obvious hazards posed by asbestos, it is certainly 
appropriate for this committee to review the statute to 
determine if changes are warranted. I do not have the answers 
as to what the appropriate course of action is, but we clearly 
need to re-look at the effectiveness of TSCA. I look forward to 
the testimony of our witnesses today and the committee's work 
on this topic.

                 Statement of Hon. Kirsten Gillibrand, 
                U.S. Senator from the State of New York

    Thank you, Chairman Lautenberg and Chairman Boxer, for 
holding this important hearing. The Toxic Substances Control 
Act (TSCA) was landmark legislation toward reducing toxic risk 
to public health and the environment when it was first signed 
into law in 1976.
    Unfortunately, since its inception, the statute has failed 
to address its stated purpose because the Environmental 
Protection Agency (EPA) was never given the authority, 
resources and access to information needed to carry out the 
mission of truly regulating the chemicals in our environment. 
For decades now this committee has heard testimony from 
representatives of multiple Administrations and other 
stakeholders about the shortcomings of the law and its 
implementation.
    In fact, 29 years ago, the General Accounting Office penned 
their initial report regarding TSCA titled ``EPA Slow To Carry 
Out Its Responsibility To Control Harmful Chemicals.'' Three 
decades later, we have not progressed. As a mother and Senator 
representing the State of New York, TSCA is a particularly 
important issue to me and my constituents.
    A short drive from my home in Upstate New York is the town 
of Fort Edward in Washington County. Apart from its importance 
as a focal point in the French and Indian Wars and the War of 
Independence, Fort Edward is also critically important to the 
history of the Toxic Substances Control Act. It is in Fort 
Edward where over 1.3 million pounds of polychlorinated 
biphenyl, better known as PCBs, were dumped into the Hudson 
River.
    According to EPA studies, PCBs are a probable human 
carcinogen and also can cause a number of serious non-cancer 
health effects to human immune, reproductive, nervous and 
endocrine systems. It was the high levels of PCBs found in fish 
in the Hudson River that raised flags about the effects that 
this chemical has on human and environmental health and led to 
its banning in the original legislation.
    Thirty years later, TSCA has only been able to examine and 
ban 5 chemicals out of the more than 80,000 currently in the 
marketplace. The vast majority of those chemicals have not even 
received the minimum level of scrutiny because of the lack of 
resources and access to critical information.
    This summer, I authored an amendment as part of the Water 
Infrastructure Financing Act that calls for a comprehensive 
study of the presence of pharmaceuticals and personal care 
products in waters of the United States. This proposed study 
was born out of a number of investigations conducted by various 
agencies as well as a series of articles from the Associated 
Press that found traces of a number of chemicals and drugs in 
waters in my State of New York and across the country. The 
studies have shown troubling effects in wildlife, but we do not 
have comprehensive data as to the health effects on humans who 
rely on those waters.
    We also do not have definitive information as to how the 
chemicals get into the water; are they from consumers, 
manufacturing, agricultural use?
    In regard to our work on this important legislation, it is 
critical that we give regulators the authority, access to 
information and resources to prevent harmful chemicals from 
entering into our environment. Doing so will minimize risk to 
our environment and prevent health concerns in our communities.
    Earlier this year, I cosponsored legislation with my 
colleagues Senator Feinstein and Senator Schumer that examines 
one chemical in particular, Bisphenol-A, better known as BPA. 
This chemical has gained a lot of attention lately because of 
recent scientific studies and possible links to breast cancer, 
obesity and neurological disorders. This fall, Administrator 
Jackson, you announced that BPA would be one of five chemicals 
included on an action list of chemicals of concern. My hope is 
that even with the current obstacles the EPA is facing under 
the current statute, that you will be able to proceed with this 
critical investigation.
    As we consider ways to modernize TSCA, we must use the best 
science to dictate our efforts. We must learn from the failures 
of the past to ensure timely consideration and regulation of 
these chemicals. We must put forward the resources to ensure 
that regulators can do the work that Congress asks of them. We 
must work with industry to promote the development of new 
products that are both competitive in a global economy and safe 
for consumers.
    I look forward to working with my subcommittee Chairman, 
Senator Lautenberg, and my fellow Senators as we develop the 
legislative text that will modernize this program and achieve 
the protections that the American people need.
    Thank you.

    [Additional material submitted for the record follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
       
                                 [all]
</pre></body></html>
